                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                        ACTION MEMORANDUM

                     File Number: A-01100031                                         I   Date: March 20,2002


     Subject: Closeout                                                                             Page I of 2



           We received allegations of misconduct in science involving the subject's' declined NSF proposal.2
           First, the subject allegedly plagiarized text from two source documents3 into the proposal. Second,
           the subject allegedly misrepresented three references4and details about one manuscript5in the same
           proposal.

           Our initial review of the alleged plagiarism showed that the subject's proposal contained a small
           amount of text that appeared to have been copiedlparaphrased from two source documents without
           distinguishing the copied text from text original to the subject. In three of the four sections,
           however, the subject had cited the appropriate source document within the text. In the fourth
           section, which consisted of a single sentence, the subject had failed to cite the appropriate source

11         document.

           Our initial review of the misrepresentation of references allegation showed that the subject included
           three citations in the body of the proposal that were not listed in the reference section of the
           proposal and that were not readily verifiable as existing publications. We also noted that the subject
           listed one manuscript as "accepted" by a journal, but other information suggested that the
           manuscript had not been "accepted."




                         Prepared by:                  Cleared by:
#


                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                     ACTION MEMORANDUM

TO: AIGI        File Number: A-01 100031                                          Date: March 20,2002


Subject: Case Closeout                                                                       Page 2 of 2



      With respect to the alleged copiedparaphrased sections in the proposal, the subject pointed out that
      three of the four sections contained the appropriate citation to the source document, and that two of
      these sections cited the source documents twice. Further, the subject stated that the four sections of
      material identified as copied were either descriptive protocol information to be employed in the
      proposed research or general information that was well-accepted by other scientists in the field.
      Because the vast majority of copiedparaphrased text were cited, we concluded that, although this
      was a deviation from accepted practice, it did not rise to the level of misconduct in science.

      With respect to the misrepresented citations and details about the manuscript presented in the
      proposal, the subject's explanation supported a conclusion that these were the consequence of
      honest errors caused by inadvertent sloppiness and equally honest errors caused by the electronic
      submission of the proposal to NSF. The subject provided the corrected citations and plausible and,
      in two instances, verifiable explanations as to how the errors with the citations occurred. Further,
      the subject provided evidence that the manuscript had been resubmitted following significant
      revision and, instead of being accepted, was sent out for review again. The subject said it had been
      a mistake to list the manuscript as "accepted." We concluded that the misrepresentations were the
      result of honest errors and carelessness and not misconduct in science.

       We wrote to the subject strongly urging that all future material submitted to NSF be carefully
       reviewed for accuracy and appropriate scholarship.

       This case is closed and no further action will be taken.




                                                                                                               a
